INFORMATION SECURITY PROGRAM
     Department of Transportation

     Report Number: FI–2007–002
     Date Issued: October 23, 2006
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Audit of Information Security                     Date:    October 23, 2006
           Program, Department of Transportation
           Report Number: FI-2007-002

  From:    Todd J. Zinser                                         Reply to
                                                                  Attn. of:   JA-20
           Acting Inspector General

    To:    Chief Information Officer

           This report presents the results of our annual audit of the information security
           program at the Department of Transportation (DOT). In accordance with the
           Federal Information Security Management Act of 2002 (FISMA), our objective
           was to determine the effectiveness of DOT’s information security program by
           measuring progress made in (1) securing information systems and protecting
           sensitive agency data, (2) strengthening air traffic control system security as part
           of the nation’s critical infrastructure, and (3) enhancing the departmental
           Investment Review Board’s (IRB) ability to identify performance gaps in major
           information technology (IT) investments. We are also contributing to DOT’s
           annual FISMA report by answering questions specified by the Office of
           Management and Budget (OMB). Our contribution to the annual DOT FISMA
           report is included as Exhibit A.

           Similar to last year, in carrying out these objectives, we tested a representative
           subset of DOT systems, including contractor-operated or -maintained systems that
           had undergone systems security certification reviews, in order to determine
           whether DOT had complied with Government standards for (1) assessing system
           risks, (2) identifying security requirements, (3) testing security controls, and
           (4) accrediting systems as able to support business operations. We also performed
           a detailed follow-up review of the Department’s process for managing remediation
           of known security deficiencies.

           This performance audit was conducted in accordance with Generally Accepted
           Government Auditing Standards prescribed by the Comptroller General of the
           United States and included such tests as we considered necessary to detect fraud,
           waste, or abuse. Details of our scope and methodology are described in Exhibit B.
                                                                                   2

INTRODUCTION
FISMA requires Federal agencies to identify and provide security protection
commensurate with the risk and magnitude of harm resulting from the loss of,
misuse of, unauthorized access to, or modification of information collected or
maintained by or on behalf of an agency. DOT maintains one of the largest
portfolios of IT systems among Federal civilian agencies; it is therefore essential
that the Department protect these systems, along with their sensitive data. In fiscal
year (FY) 2006, DOT’s IT budget totaled about $2.5 billion. During FY 2006,
DOT experienced leadership changes at both departmental and Federal Aviation
Administration (FAA) Chief Information Officer (CIO) offices.

The Department has 12 Operating Administrations (OA). All OAs except FAA
and the Surface Transportation Board (STB) are scheduled to relocate to a new
Headquarters building next year. To support this move, the Department
consolidated individual OAs’ IT infrastructures (e-mail, desktop computing, and
local area networks) into a common IT operating environment. This consolidated
IT infrastructure presents opportunities to enhance the Department’s information
security, along with challenges that include installing, testing, and accrediting the
new common IT operating environment; installing more than 75 OA application
systems on the new IT infrastructure; and recertifying the security of these systems
to support business operations in the new Headquarters building—all on a very
tight and still evolving schedule.

For FY 2006, the Department reported a total of 426 computer systems, about
6 percent fewer than last year as a result of its continuing effort to consolidate
systems. Among the systems the Department maintains and operates is the air
traffic control system, which the President has designated a national critical
infrastructure. Other systems owned by the Department include safety-sensitive
surface transportation systems and financial systems that disburse over $50 billion
in Federal funds each year. Systems inventory counts for FY 2005 and FY 2006
for each OA are detailed in Exhibit C.


RESULTS IN BRIEF
During FY 2006, the Department made noticeable improvement in tracking,
prioritizing, and correcting security weaknesses—a major concern identified last
year. The Department also took aggressive action to identify systems containing
personally identifiable information (PII) for proper security protection, including
procuring encryption software to secure all laptop computers. In addition, the
departmental IRB provided oversight to a multibillion-dollar IT investment project
managed by FAA.
                                                                                   3

FY 2007 will be a particularly challenging year for the Department in managing
its IT security and investments. It has to recertify more than half of all its
information systems, upgrade systems security to meet new Government
standards, relocate its Headquarters (including more than 75 information systems),
and take aggressive action to strengthen air traffic control systems security
protection. In addition, the Department needs to develop a better methodology to
validate the security configurations of commercial software products installed in
DOT systems and continue enhancing oversight of IT investments. Specifically:

• Air Traffic Control. Securing the nation’s critical air traffic control systems
  infrastructure should be a top priority of DOT’s information security program.
  However, FAA has not made adequate progress in implementing planned
  corrective actions. In FY 2004, FAA committed to developing contingency
  planning for restoring essential air services in case of prolonged service
  disruption and completing reviews of operational air traffic control systems
  security over a period of 3 years. Last year, we reported that FAA’s overall
  progress was insufficient because it did not start to initiate corrective action in
  earnest until April 2005. During FY 2006, FAA made limited progress in
  these areas due, according to FAA management, to funding constraints. We
  recognize that FAA faces critical decisions in balancing its priorities and using
  its funds at a time of increasingly tight budgets. Yet issues concerning the
  security of a critical national infrastructure should receive priority and
  immediate attention. The FAA Deputy Administrator, the head of the Air
  Traffic Organization, and the FAA CIO committed to developing detailed
  work plans, allocating required resources, and implementing corrective actions.
  During FY 2007, we plan to initiate an audit of FAA’s progress in reviewing
  operational systems security and contingency planning in accordance with the
  approved plans.

• Security Recertification. About 230 systems—more than half of the
  Department’s total inventory—are due for security recertification during
  FY 2007. On top of that, these systems must meet new minimum Government
  security standards before they can be recertified, which will require security
  upgrades in some cases. Meeting these new standards also requires policy
  guidance and awareness training. For example, system owners did not
  properly follow National Institute of Standards and Technology (NIST)
  guidance in assigning risk categories for 6 of 14 systems sampled this year. If
  not corrected, the erroneous (lower) risk rating could result in inadequate
  security protection for these systems. Further, critical infrastructure systems
  used to direct air traffic control and track shipments of hazardous materials
  were reported as having a moderate risk impact, which is inconsistent with
  OMB direction. The departmental CIO informed us that he plans to issue new
  policy guidance on risk categorization in FY 2007 to ensure more consistent
                                                                                  4

   risk-impact analyses. Therefore, in our submission to OMB this year, we
   decided not to report how many high, moderate, or low risk-impact systems the
   Department had.

• IT Infrastructure Consolidation. In FY 2007, the Department has to
  implement a consolidated IT infrastructure to support all OAs relocated to the
  new Headquarters building. While this consolidated IT infrastructure presents
  a good opportunity to consolidate IT operations and eliminate fragmentation, it
  will require a higher level of security protection because the potential impact of
  disruption will be greater—i.e., on multiple OAs, not just one. However, the
  plan and schedule to implement and test this new infrastructure are still
  evolving, due to a variety of move-related problems. As part of this IT
  consolidation, the Department should also identify a systems backup/recovery
  site at a sufficient geographic distance from the new Headquarters and conduct
  systems contingency testing after completing the Headquarters move. Further,
  the CIO needs to direct OAs not to make additional investments to equip their
  individual system backup/recovery sites until decisions have been made for the
  consolidated recovery site. As we previously reported, some OA recovery
  sites are within a short distance from Headquarters—10, 15, or 25 miles. In
  case of an emergency, OAs would be likely to lose both the primary and
  backup computers used to support their missions. Such sites should be
  replaced by the consolidated backup/recovery site.

• Network Security. In the past several years, the Department has done a
  commendable job in enhancing its network security against both internal and
  external attacks based on known vulnerabilities in commercial off-the-shelf
  software, such as the Windows operating system and Oracle database system.
  To further reduce this risk, all agencies are now required to configure these
  commercial systems in accordance with NIST or agency standards. During FY
  2006, 9 of 12 OAs submitted documentation to the CIO office to support their
  compliance with standards. However, the submissions were incomplete and
  inconclusive. As a result, the Department cannot determine whether
  commercial software is properly configured to help prevent attacks on DOT
  systems. The CIO needs to develop a better method of evaluating OAs’
  compliance with security configuration standards.

• IT Investment Management. In FY 2005, we recommended that the
  Department clarify the IRB’s authority and increase the Board’s capability to
  research potential project cost, schedule, and performance shortfalls on
  complicated IT investments. Subsequently, the Department confirmed that the
  Board, through advising the Secretary, can influence budget decisions on all IT
  investments. During FY 2006, using this authority, the Board enhanced project
  management of a multibillion-dollar investment project called the FAA
                                                                                  5

   Telecommunications Infrastructure.      In terms of identifying problems
   associated with major IT investments, the Department plans to delegate more
   responsibilities to individual OA review boards to oversee their specific IT
   investments. While we support the idea of holding each OA accountable for its
   own projects, this will not be possible until clear performance measures are
   established, such as Earned Value Management (EVM) measures. However,
   we found 70 percent of DOT’s major IT investment projects met fewer than
   half of OMB’s criteria for EVM implementation.

We are making a series of recommendations, starting on page 15, to help the
Department strengthen its information security program, the security protection of
the critical air traffic control systems infrastructure, and oversight of its
multibillion-dollar annual IT investments. The departmental CIO agreed with our
findings and recommendations. We have requested that DOT provide written
comments describing the specific actions it will take to implement these
recommendations.


FINDINGS

Protecting the Nation’s Critical Infrastructure: FAA Needs To Make
Greater Progress in Reviewing Operational Systems and in
Contingency Planning
The President has designated air traffic control systems a critical national
infrastructure due to the important role commercial aviation plays in fostering and
sustaining the national economy and ensuring citizens’ safety and mobility. In
FY 2004, based on audit findings, FAA made a strong commitment to enhancing
the security protection of air traffic control systems. One of its promises was to
complete security reviews of all operational air traffic control systems—at
en route, approach control, and airport terminal facilities—between FY 2005 and
FY 2007. This is critical to protecting air traffic control systems because security
vulnerabilities could inadvertently be created when changes are made to the
“baseline” systems to meet local operational needs.

FAA made little progress in reviewing operational air traffic control systems
security until after April 2005, when the Inspector General sent a letter to the FAA
Administrator expressing concern over the slow pace of the corrective action. By
the end of FY 2005, FAA had conducted initial reviews at all en route facilities,
representing a clear step in the right direction. However, FAA did not follow
through with this effort during FY 2006 because of, according to FAA officials, a
funding shortage.
                                                                                    6

In October of this year, the FAA CIO and the head of the Air Traffic Organization
committed to developing a plan by the end of December 2006 detailing the
approach FAA will take during FY 2007 to evaluate security differences between
systems used to direct air traffic at terminal and tower facilities and the “baseline”
systems previously tested in its computer laboratory. If this process is
implemented effectively, it will significantly strengthen security protection of air
traffic control systems.

Another FAA promise was to develop a contingency plan to restore essential air
services in case of prolonged service disruptions at en route centers. FAA’s
existing business continuity plan has worked well in the past to ensure flight safety
when dealing with temporary, less severe disruptions. In FY 2005, we reported
that FAA had identified a contingency strategy to deal with prolonged service
disruptions but was years away from its implementation. In October 2006, the
FAA Deputy Administrator informed us that FAA had identified an interim
solution based on the results of an engineering study. The Deputy Administrator
also made a strong commitment to fund this interim solution with existing FAA
resources.

We recognize that FAA faces critical decisions in balancing its priorities and using
its funds at a time of increasingly tight budgets. Yet issues concerning the security
of a critical national infrastructure should receive attention and support from OMB
and Congress. We plan to initiate an audit of FAA’s progress in reviewing
operational systems security and implementing the interim solution for
contingency planning in accordance with the approved plans.


Systems Security: The Department Faces a Unique Challenge in
Recertifying More Than Half of Its Systems’ Security in Fiscal Year
2007, While Meeting a New Government Security Standard
In FY 2004, the Department made significant strides in reviewing and testing
information systems security and successfully increased the systems certification
and accreditation rate from 33 percent to over 90 percent. The certification and
accreditation process is a statutory requirement to ensure that information systems
are adequately secured to support agency missions and must be conducted every 3
years or upon major system change. The reviews conducted in 2004 are due for
recertification in 2007, as will be the systems moving to the new Headquarters
building—as moving constitutes a significant change. Prior to the move, the CIO
decided to delay recertifying systems that were moving to the new building and
were due to be recertified within 180 days of their scheduled move date. The CIO
also extended the system certification statements for an additional 120 days after
the systems move. Given the move, DOT will be faced with the need to recertify
                                                                                   7

some 230 systems during FY 2007—almost double the number that DOT would
like to review on a yearly basis (see Table 1).


        Table 1. Number of DOT Systems Due For Security
             Recertification as of September 28, 2006
                                Systems to be recertified in:         Total
                OA*            FY 2007   FY 2008      FY 2009      systems
                FAA                 106        79             78       263
                FHWA                 23         0              0        23
                FMCSA                11         4              7        22
                FRA                   9         0             13        22
                FTA                   5         0              1         6
                MARAD                12         0              0        12
                NHTSA                14         2              2        18
                OST                  38         1              4        43
                PHMSA                 3         1              1         5
                RITA                  8         0              1         9
                SLSDC                 0         0              1         1
                STB                   1         0              1         2
                   Total              230           87      109        426
              *See Exhibit C for a list of OA acronyms.

Systems Security Needs To Be Upgraded To Meet Minimum
Standards
In addition to the number of systems that require recertification, another
complication is that the recertifications will have to be conducted to a higher
standard. FISMA required NIST to develop minimum security standards for
Federal agencies’ systems. These new standards become effective in March 2007
and will most likely require security upgrades in the Department’s systems. In an
attempt to estimate the gap between existing security controls and the minimum
security requirements, we performed a preliminary assessment on a safety-
sensitive system that had undergone the security certification review in previous
years. It met only about two-thirds of the minimum security standards in one
critical area. Although this gap is not a reflection of improper certification
reviews in the past, it needs to be addressed before the system is recertified in the
future.

Another area that can have a significant impact on the quality of the review is
determining the correct risk categorization of a system. This categorization is the
first step in determining what minimum security controls will be required for a
system. Six of 14 systems sampled this year were incorrectly categorized with a
lower-than-warranted risk-impact level. In addition, critical infrastructure systems
                                                                                                                           8

used to direct air traffic control and track shipments of hazardous materials are
reported as having a moderate risk-impact, which is inconsistent with OMB
direction.

We also reviewed systems containing PII. These systems contain individuals’
names and unique identifiers, such as social security numbers. DOT has made
progress by identifying PII systems, but has no assurance that they are adequately
secured, because the correct impact level was not identified. Our review of the
risk impact levels of the 100 DOT PII systems uncovered varying levels of
confidentiality: 9 high, 63 moderate, 18 low, and 10 lacking a rating. Further
evaluation of the 18 PII systems with a low confidentiality risk rating identified 11
with a low overall risk rating. 1 This is contrary to DOT policy, which states that
any system containing PII must by definition have an overall risk level rating of at
least moderate.

To meet all of these challenges, the OAs will need to submit system recertification
work schedules for approval, identify security upgrade needs and funding sources,
and report progress against approved schedules throughout the year. Continual
oversight by the departmental CIO will be needed to ensure that the schedules
address the funding sources and upgrades needed for the recertifications, to
measure OAs’ progress against their plans, and to provide policy guidance where
necessary throughout the year.


Responsibility for Securing Safety Systems Used Nationwide Needs
To Be Clarified
We also found that the Commercial Driver’s License Information System (CDLIS)
is not included in the departmental systems inventory—and therefore did not
receive a system security review. CDLIS is used by the Federal Motor Carrier
Safety Administration (FMCSA) and state agencies to manage information on
drivers holding commercial driver’s licenses. Contained in the system are an
individual’s name, address, social security number, date of birth, and race. The
system works as a pointer system, 2 similar to the National Driver Register
(NDR)—another safety-critical system, which we reviewed last year. The
Department has a legal responsibility to protect the information in both of these
systems, yet is inconsistent in its approach to them. For example, NDR has had a
system security review in the past few years, while CDLIS has not. The


1
    Systems are rated for confidentiality, integrity, and availability and are also given an overall rating, which is equal to
    the highest rating given for any of those three components.
2
    A pointer system is one that provides abbreviated information while identifying the location of a more complete
    record. In the case of NDR, limited information is available on individuals whose privilege to drive has been
    revoked, suspended, canceled, or denied or who have been convicted of a serious traffic-related offense. The system
    also identifies the state in which a more complete record can be accessed.
                                                                                                                  9

Department thus lacks assurance that CDLIS is operating at a level of security
commensurate with its risks.

When we attempted to determine the cause for its exclusion from the
Department’s inventory, the reason provided by FMCSA was that CDLIS is only a
grants program, meaning that the organization receiving the grant would be
responsible for the system. In our opinion, however, CDLIS remains a DOT
system. FMCSA officials have asked their counsel for an opinion on the matter
and will not commit to conducting a security review until the legal opinion is
received. In the interim, however, FMCSA has initiated action to meet with the
contractor, review the security in place, and determine if it is effective and
adequate. Following this meeting and security review, FMCSA will plan a course
of action to remediate any gaps found in CDLIS security.


Headquarters Move: The Department Needs To Thoroughly Test Its
Consolidated IT Infrastructure for Adequate Security Before Moving
Critical Systems to Its New Headquarters
Traditionally, each OA has managed its own IT infrastructure (desktop computers,
local area networks, and e-mail) in the departmental Headquarters. These
duplicative IT operations were expensive to maintain and had inconsistent security
protections—both physical and logical. 3 Since they were interconnected, security
weaknesses in one OA’s infrastructure could endanger others: in other words,
they are only as strong as the weakest link.

As part of the move to the new Headquarters, the Department seized the
opportunity to consolidate these IT infrastructure operations into one. Because the
consolidated IT infrastructure will support all OAs’ operations, it will require a
higher level of security protection than is presently the case and will therefore also
need thorough testing. While this consolidated infrastructure can help strengthen
departmentwide security protection and make IT operations more efficient, the
current schedule and plan for implementation and testing are still evolving, due to
a variety of move-related problems. If not properly secured, this consolidated
infrastructure could result in much greater harm to the integrity of departmental
system operations than would be the case if only one OA were affected. The
Department must thoroughly test this new IT infrastructure before installing OA
mission-critical systems in this new infrastructure.




3
    Logical security consists of software safeguards for an organization’s systems, including user identification and
    password access, authentication, access rights, and authority levels. These measures are to ensure that only
    authorized users are able to perform actions or access information in a network or a workstation.
                                                                                10

Fragmented Systems Backup and Recovery Sites Need To Be
Eliminated
As part of this IT consolidation, the Department should also identify a systems
backup/recovery site at a sufficient geographic distance from the new
Headquarters and conduct systems contingency testing after completing the
Headquarters move. Further, the CIO needs to direct OAs not to make additional
investments to equip their individual system backup/recovery sites until decisions
have been made for the consolidated recovery site.

OAs have been responsible for establishing their individual backup/recovery sites
because they had separate IT infrastructures. In FY 2003, we reported inadequate
contingency planning and testing at OA recovery sites. In addition, we stated that
to reduce the probability of losing both primary and backup sites to the same
disaster, the Department needed to develop guidance on the minimum allowable
geographic distance between a system’s primary and recovery processing sites.
Some OAs’ recovery sites are within 10, 15, or 25 miles of primary sites. In case
of an emergency, those OAs would likely lose both the primary and backup
computers for their mission-critical systems, such as safety inspection and grants
management systems, since natural disasters often cover areas as large as 25 miles
or more. Such sites should be replaced by the consolidated backup/recovery site.

In FY 2005 we reported that over 50 percent of the systems in the sample lacked
contingency plans and over 80 percent of the plans were not tested and continued
to have recovery site locations that were too close. This year, 9 of the 14 systems
did not have contingency plans; in addition, 11 of the 14 systems did not provide
documented evidence that a contingency plan had been tested, and the problem
with recovery site proximity continues. Overall, about 60 percent lacked
contingency plans and about 75 percent lacked plan testing within the previous
year, as required by OMB. The Department needs to enhance systems
contingency planning through this IT consolidation effort.


Network Security: The Department Needs To Ensure That Operating
Administrations’ Systems Are Configured According to Security
Standards
To meet FISMA requirements for a minimally acceptable system configuration,
DOT published additional baseline configuration standards for various commercial
off-the-self software products in FY 2006. The issuance of these additional
guidelines has provided DOT with greater capability to configure all of its
software products based on standardized security benchmarks. Yet obtaining the
data with which to ensure compliance with these standards has proved elusive.
                                                                                   11

During FY 2006, as an initial effort, DOT identified 117 systems from its
inventory of 426 to be tested for compliance with its baseline configuration
standards. Accordingly, in April 2006, the Department issued a policy requiring
these systems to be completely checked and validated by OAs. In August 2006,
the departmental CIO reminded all OAs’ CIOs to complete their compliance
checks and report the testing results by early September 2006. Only 9 of the
12 OAs responded to the Department’s request for information regarding their
implementation of DOT configuration standards, and they were responsible for
only 36 of the 117 systems (see Table 2).

Table 2. Operating Administrations’ Responses to CIO Request
      for Information on Implementation of DOT Security
                    Configuration Standards

                                                   Number of systems
                                                 OAs are responsible
   Operating Administration (OA)*             for (compliance review)   Subtotal
    OA Did Not Respond          FAA                               77
                                MARAD                              3
                                SLSDC                              1
                                                                             81
    OA Responded                FHWA                               6
                                FMCSA                              2
                                FRA                                3
                                FTA                                3
                                NHTSA                             12
                                OST                                3
                                PHMSA                              3
                                RITA                               2
                                STB                                2
                                                                             36
       Total for all OAs                                                    117
  *See Exhibit C for a list of OA acronyms.

In addition, the OAs’ responses presented a big challenge for the CIO to
effectively validate the actual implementation of DOT’s configuration standards.
Specifically, the OAs’ responses

• came in a variety of formats, including spreadsheets, vulnerability scanning
  results, automatically generated scoring reports, and manual checklists;
• did not include the evidence requested, such as computer screen shots showing
  actual settings on a tested system; and
                                                                                12

• contained data on systems that were not selected for the compliance review.

As a result, the CIO was not able to effectively determine how many of the
117 systems selected for compliance review were actually tested and to what
extent they were in compliance with DOT baseline configuration standards. This
happened because DOT has not established a consistent method or set of criteria to
be used when validating the actual configuration implementation of its systems.
We closely worked with the CIO’s office to determine the percentage of DOT
systems meeting security configuration standards based on these submissions for
this year’s OMB reporting.

Our contractors also identified deficiencies in the commercial software products
used in DOT financial systems, such as vulnerabilities on the computer servers.
Those servers were running Windows operating systems and did not meet DOT’s
Windows security baseline configuration standards.

The Department needs to enforce its configuration standards. Specifically, DOT
needs to establish a consistent method to be used when validating the actual
configuration implementation of its systems.


Management Controls: The Department Needs To Work With
Operating Administrations To Strengthen Oversight of IT Investments
and Streamline Duplicative IT Systems
Last year, we expressed concern over the departmental IRB’s ability to provide
value-added services when reviewing FAA’s major IT investment projects. As a
result, we recommended that the Department clarify the Board’s authority and
increase the Board’s capability to research potential project cost, schedule, and
performance shortfalls on complex IT investments. Subsequently, the Department
confirmed that the Board, through advising the Secretary, can influence budget
decisions on all IT investments. During FY 2006, using this authority, the Board
enhanced project management of a multibillion-dollar investment project called
FAA Telecommunications Infrastructure.

In terms of identifying problems associated with major IT investments, the
Department plans to delegate more responsibilities to individual OA review boards
to oversee their specific IT investments. While we support the idea of holding
OAs more accountable for their own projects, this will not be possible until the
departmental IRB establishes clear performance measures, such as earned value
management measures for IT investments (see following section). Currently, 13
departmental IT investment projects are included in OMB’s high-risk list, which
account for about $24 billion in life-cycle costs. Twelve of these high-risk
projects are related to air traffic control modernization, which has been on the
                                                                                                     13

Government Accountability Office’s high-risk list for more than 10 years. The
departmental IRB needs to work with OA review boards to continue exercising
knowledgeable oversight of these major IT investments.


Earned Value Management System Needs To Be Utilized To Better
Monitor IT Investments
As a fundamental requirement of acquisition or modification of major systems, the
earned value management system offers management important insights into
progress. Full implementation of the EVM system on IT programs would ensure
that management receives information providing accurate cost and schedule
performance data essential for planning and making effective IT business
decisions. In addition, recognizing the importance of EVMS, OMB issued a
memorandum last year, which listed 32 criteria that agencies should meet when
implementing EVMS to monitor their major IT investments. 4

However, an effective EVMS practice has not yet been implemented at DOT. For
example:

• Seventy-one percent (15 out of 21) of major FAA IT investments met fewer
  than half of the OMB criteria.

• Seventy percent (7 out of 10) of other major DOT IT investments met fewer
  than half of the OMB criteria.

According to the CIO, during FY 2006 his office was not able to develop a plan
for improvement, given the loss of key personnel and the fact that they have not
been able to identify qualified staff with extensive EVM knowledge. As a result,
the EVM data generated and reported to the CIO by the OAs do not go through an
assessment of integrity or accuracy. However, these EVM data are still provided
to DOT management, which uses this information to better understand the
progress on approved IT investments and to make investment decisions. In
addition, the CIO continues to use these EVM data for mandatory reporting to
OMB.        OMB placed seven major DOT investments—FAA (6) and
Departmentwide (1)—on the high-risk list because of the questionable EVM data
reported. These projects account for about $720 million in DOT’s FY 2006 IT
budget, and $16 billion in life-cycle cost estimates. Enhancing the use of EVMS
to monitor major IT investment projects requires committed management
attention.




4
    Improving Information Technology (IT) Project Planning and Execution, M-05-23, August 4, 2005.
                                                                                    14

Efforts To Streamline Duplicative Systems for Cost Savings Need To
Continue
Another area requiring senior management attention is continuing to streamline
duplicative common systems for cost savings. In FY 2003, the Department
identified opportunities to consolidate duplicative systems used in 11 common
business areas across OAs, such as office IT infrastructure, financial management,
grants management, and training. During FY 2006, the Department completed its
consolidation of recruitment systems and will complete consolidation of IT
infrastructures at the new Headquarters in FY 2007. Progress has also been made
in eliminating duplicative financial systems and teaming with the Department of
Housing and Urban Development to streamline grants management systems. The
Department needs to continue to actively pursue streamlining these duplicative
systems to realize the cost savings that consolidation can offer (see Table 3).


                   Table 3. Status of Enterprise Initiatives
                          as of September 15, 2006

                                                                 Amount of life-
                                                     Number of     cycle budget
                                                       current    (in millions of
      Initiative                                      systems            dollars)
      Financial Management/Travel Systems                   26              $725
      Grants Management                                      5                  8
      Recruitment                                            2                26
      Internal Rulemaking Tracking                           3                  1
      Procurement Management                                 9                26
      Enterprise Document Management                       N/A                45
      Training                                              16                50
      ACE/ITDS (Automated Commercial
      Environment/International Trade Data System)        N/A                  2
      Intermodal Hazmat Data Sharing                      N/A                 14
      Enterprise Architecture                              11                 39
      IT Consolidation                                     61              1,309
         Total                                                            $2,245
     N/A: information not available.
                                                                                15



RECOMMENDATIONS
In order to strengthen the Department’s information security program, we
recommend that the Department’s Chief Information Officer:

Enhance critical infrastructure protection by:

    1. Evaluating the adequacy of the corrective action plans submitted by FAA
       for reviewing operational air traffic control system security and developing
       contingency plans for prolonged service disruptions, to ensure
       accountability.

    2. Conducting quarterly assessment review meetings with FAA to measure
       progress made against the approved plans.

Enhance computer systems security reviews by:

    3. Ensuring that recertifications of DOT information systems are prioritized
       and needed security upgrades identified. OAs must report progress
       measured against a pre-approved schedule throughout the year, including
       but not limited to budget and staffing levels for FY 2007.

    4. Developing, implementing, and enforcing a policy clarifying to OAs how
       to correctly determine overall systems risk-impact levels.

    5. Issuing a memorandum of understanding delineating systems security roles
       and responsibilities for national databases such as CDLIS and NDR, to
       ensure that they are correctly assessed for risk and appropriately secured.

Enhance the security protection associated with the Headquarters move by:

    6. Testing the new building’s infrastructure before installing OAs’ mission-
       critical systems on the infrastructure.

    7. Establishing system backup and recovery sites for the consolidated IT
       infrastructure and all applications systems operating on it, committing to a
       specific date for conducting systems recovery testing after completing the
       Headquarters move, and directing OAs to eliminate their individual system
       backup/recovery sites.

Enhance systems contingency planning and testing by:

    8. Developing and testing contingency plans for information systems that
       lack such plans.
                                                                                 16

Enhance DOT network security by:

    9. Developing a standard methodology to collect information from OAs to
       validate that commercial software products used in their information
       systems are configured in accordance with security standards.

   10. Conducting a validation review and following up with OAs on a quarterly
       basis throughout the year.

Enhance IT investment management controls by:

    11. (a) Working with OAs to develop performance measures on their IT
       investment projects to ensure effective oversight by OAs’ investment
       review boards.

       (b) Requiring OAs to report the review results to the departmental IRB.

    12. (a) Working with FAA to ensure proper implementation of earned value
        management to oversee all high-risk projects.

       (b) Working with other OAs to measure their implementation of earned
       value management based on OMB criteria.

    13. Developing a plan to continue streamlining duplicative common systems
        in identified areas after completing the Headquarters move.


MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
The CIO Office reviewed a draft of this report and provided oral comments. CIO
officials concurred with the report’s findings and recommendations and stated that
they will provide written comments describing the specific actions they will take
to implement the recommendations.


ACTIONS REQUIRED
In accordance with DOT Order 8000.1C, we would appreciate receiving your
written comments on this report within 30 calendar days. Please indicate the
specific actions taken or planned for each recommendation and a target date for
completion. You may provide alternative courses of action that you believe would
resolve the issues presented in this report.
                                                                              17

We appreciate the courtesies and cooperation of the Office of the CIO and the
OAs’ representatives during this audit. If you have any questions concerning this
report, please call me at (202) 366-6767; Theodore P. Alves, Acting Deputy
Inspector General, at (202) 366-1992; or Rebecca C. Leng, Assistant Inspector
General for Financial and Information Technology Audits, at (202) 366-1496.


                                       #

cc: Deputy Secretary
    Federal Aviation Administrator
    CIO Council members
    Martin Gertel, M-1
 EXHIBIT A. OIG INPUT TO FISMA REPORT
                                                               Section C: Inspector General. Questions 1, 2, 3, 4, and 5.
                                                                                       Agency Name:
                                                                                      Question 1 and 2
1. As required in FISMA, the IG shall evaluate a representative subset of systems, including information systems used or operated by an agency or by a contractor of an agency or
other organization on behalf of an agency. By FIPS 199 risk impact level (high, moderate, low, or not categorized) and by bureau, identify the number of systems reviewed in this
evaluation for each classification below (a., b., and c.).

To meet the requirement for conducting a NIST Special Publication 800-26 review, agencies can:
1) Continue to use NIST Special Publication 800-26, or,
2) Conduct a self-assessment against the controls found in NIST Special Publication 800-53
Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency, therefore, self reporting by
contractors does not meet the requirements of law. Self reporting by another Federal agency, for example, a Federal service provider, may be sufficient. Agencies and service providers have a
shared responsibility for FISMA compliance.
2. For each part of this question, identify actual performance over the past fiscal year by risk impact level and bureau, in the format provided below. From the representative subset
of systems evaluated, identify the number of systems which have completed the following: have a current certification and accreditation , a contingency plan tested within the past
year, and security controls tested within the past year.
                                                                      Question 1                                                                       Question 2
                                              a.                          b.                            c.                        a.                         b.                      c.
                                        Agency Systems            Contractor Systems             Total Number of          Number of systems             Number of           Number of systems
                                                                                                     Systems                certified and           systems for which            for which
                                                                                                                             accredited              security controls       contingency plans
                                                                                                                                                     have been tested       have been tested in
                                                                                                                                                     and evaluated in         accordance with
                                                                                                                                                       the last year        policy and guidance
Bureau          FIPS 199 Risk         Total        Number          Total        Number         Total        Number        Total      Percent of      Total      Percent      Total      Percent
Name            Impact Level         Number       Reviewed        Number       Reviewed       Number       Reviewed      Number        Total        Number      of Total    Number      of Total
FAA            High                          0             0              0             0              0            0
               Moderate                      0             0              0             0              0            0
               Low                           0             0              0             0              0            0
               Sub-total                  252              6            11             1           263              7           7     100.0%              3     42.9%             2      28.6%
FHWA           High                          0             0              0             0              0            0
               Moderate                      0             0              0             0              0            0
               Low                           0             0              0             0              0            0
               Sub-total                   22              0             1             0             23             0           0        0.0%             0      0.0%             0        0.0%
FMCSA          High                          0             0              0             0              0            0
               Moderate                      0             0              0             0              0            0
               Low                           0             0              0             0              0            0
               Sub-total                   22              0             0             0             22             0           0        0.0%             0      0.0%             0        0.0%
FRA            High                          0             0              0             0              0            0
               Moderate                      0             0              0             0              0            0
               Low                           0             0              0             0              0            0
               Sub-total                   22              0             0             0             22             0           0        0.0%             0      0.0%             0        0.0%
FTA            High                          0             0              0             0              0            0
               Moderate                      0             0              0             0              0            0
               Low                           0             0              0             0              0            0
               Sub-total                     5             0             1             0              6             0           0        0.0%             0      0.0%             0        0.0%
MARAD          High                          0             0              0             0              0            0
               Moderate                      0             0              0             0              0            0
               Low                           0             0              0             0              0            0
               Sub-total                   12              0             0             0             12             0           0        0.0%             0      0.0%             0        0.0%
NHTSA          High                          0             0              0             0              0            0
               Moderate                      0             0              0             0              0            0
               Low                           0             0              0             0              0            0
               Sub-total                   15              0             3             0             18             0           0        0.0%             0      0.0%             0        0.0%
OST            High                          0             0              0             0              0            0
               Moderate                      0             0              0             0              0            0
               Low                           0             0              0             0              0            0
               Sub-total                   43              3             0             0             43             3           3     100.0%              0      0.0%             0        0.0%
PHMSA          High                          0             0              0             0              0            0
               Moderate                      0             0              0             0              0            0
               Low                           0             0              0             0              0            0
               Sub-total                     5             1             0             0              5             1           1     100.0%              0      0.0%             0        0.0%
RITA           High                          0             0              0             0              0            0
               Moderate                      0             0              0             0              0            0
               Low                           0             0              0             0              0            0
               Sub-total                     9             2             0             0              9             2           2     100.0%              0      0.0%             0        0.0%
SLSDC          High                          0             0              0             0              0            0
               Moderate                      0             0              0             0              0            0
               Low                           0             0              0             0              0            0
               Sub-total                     1             0             0             0              1             0           0        0.0%             0      0.0%             0        0.0%
STB            High                          0             0              0             0              0            0
               Moderate                      0             0              0             0              0            0
               Low                           0             0              0             0              0            0
               Sub-total                    2              0             0             0             2              0           0        0.0%             0      0.0%             0        0.0%
Agency         High                         0              0             0             0             0              0           0        0.0%             0      0.0%             0        0.0%
Totals         Moderate                     0              0             0             0             0              0           0        0.0%             0      0.0%             0        0.0%
               Low                          0              0             0             0             0              0           0        0.0%             0      0.0%             0        0.0%
               Not Categorized              0              0             0             0             0              0           0        0.0%             0      0.0%             0        0.0%
               Total                      410             12            16             1           426             13          13      100.0%             3     23.1%             2       15.4%

 Exhibit A. OIG INPUT TO FISMA REPORT
                                                             Question 3

      In the format below, evaluate the agency’s oversight of contractor systems, and agency system inventory.


                    The agency performs oversight and evaluation to ensure information
                    systems used or operated by a contractor of the agency or other
                    organization on behalf of the agency meet the requirements of FISMA,
                    OMB policy and NIST guidelines, national security policy, and agency
                    policy. Self-reporting of NIST Special Publication 800-26 and/or NIST
                    800-53 requirements by a contractor or other organization is not
                    sufficient, however, self-reporting by another Federal agency may be       - Almost Always, for example,
          3.a.      sufficient.                                                                  approximately 96-100% of the
                                                                                                 time
                    Response Categories:
                     - Rarely, for example, approximately 0-50% of the time
                     - Sometimes, for example, approximately 51-70% of the time
                     - Frequently, for example, approximately 71-80% of the time
                     - Mostly, for example, approximately 81-95% of the time
                     - Almost Always, for example, approximately 96-100% of the time


                    The agency has developed an inventory of major information systems
                    (including major national security systems) operated by or under the
                    control of such agency, including an identification of the interfaces
                    between each such system and all other systems or networks, including
                    those not operated by or under the control of the agency.
         3.b.1.                                                                                - Approximately 96-100% complete
                    Response Categories:
                         - Approximately 0-50% complete
                         - Approximately 51-70% complete
                         - Approximately 71-80% complete
                         - Approximately 81-95% complete
                         - Approximately 96-100% complete


                    If the Agency IG does not evaluate the Agency's inventory as 96-100%
         3.b.2.                                                                                                  N/A
                    complete, please list the systems that are missing from the inventory.


                    The OIG generally agrees with the CIO on the number of agency
          3.c.                                                                                                   Yes
                    owned systems.


                    The OIG generally agrees with the CIO on the number of information
          3.d.      systems used or operated by a contractor of the agency or other                              Yes
                    organization on behalf of the agency.


          3.e.      The agency inventory is maintained and updated at least annually.                            Yes




          3.f.      The agency has completed system e-authentication risk assessments.                           Yes




Exhibit A. OIG INPUT TO FISMA REPORT
                                                                 Question 4

      Through this question, and in the format provided below, assess whether the agency has developed, implemented, and is
      managing an agency wide plan of action and milestone (POA&M) process. Evaluate the degree to which the following
      statements reflect the status in your agency by choosing from the responses provided in the drop down menu. If appropriate or
      necessary, include comments in the area provided below.

      For items 4a.-4.f, the response categories are as follows:

            -    Rarely, for example, approximately 0-50% of the time
            -    Sometimes, for example, approximately 51-70% of the time
            -    Frequently, for example, approximately 71-80% of the time
            -    Mostly, for example, approximately 81-95% of the time
            -    Almost Always, for example, approximately 96-100% of the time


                       The POA&M is an agency wide process, incorporating all
                       known IT security weaknesses associated with information
                                                                                      - Mostly, for example, approximately 81-95%
          4.a.         systems used or operated by the agency or by a contractor
                                                                                        of the time
                       of the agency or other organization on behalf of the
                       agency.



                       When an IT security weakness is identified, program
                       officials (including CIOs, if they own or operate a system)    - Mostly, for example, approximately 81-95%
          4.b.
                       develop, implement, and manage POA&Ms for their                  of the time
                       system(s).



                       Program officials, including contractors, report to the CIO
                                                                                      - Almost Always, for example, approximately
          4.c.         on a regular basis (at least quarterly) on their remediation
                                                                                        96-100% of the time
                       progress.



                       CIO centrally tracks, maintains, and reviews POA&M             - Almost Always, for example, approximately
          4.d.
                       activities on at least a quarterly basis.                        96-100% of the time


                                                                                      - Almost Always, for example, approximately
          4.e.         OIG findings are incorporated into the POA&M process.
                                                                                        96-100% of the time


                       POA&M process prioritizes IT security weaknesses to help
                                                                                      - Mostly, for example, approximately 81-95%
          4.f.         ensure significant IT security weaknesses are addressed in
                                                                                        of the time
                       a timely manner and receive appropriate resources




Exhibit A. OIG INPUT TO FISMA REPORT
                                                              Question 5

      OIG Assessment of the Certification and Accreditation Process. OMB is requesting IGs to provide a qualitative assessment of
      the agency’s certification and accreditation process, including adherence to existing policy, guidance, and standards. Agencies
      shall follow NIST Special Publication 800-37, “Guide for the Security Certification and Accreditation of Federal Information
      Systems” (May, 2004) for certification and accreditation work initiated after May, 2004. This includes use of the FIPS 199
      (February, 2004), “Standards for Security Categorization of Federal Information and Information Systems,” to determine an
      impact level, as well as associated NIST documents used as guidance for completing risk assessments and security plans .




                     Assess the overall quality of the Department's certification and
                     accreditation process.

                     Response Categories:
                          - Excellent                                                           - Good
                          - Good
                          - Satisfactory
                          - Poor
                          - Failing



      Comments: We found that critical infrastructure systems used to direct air traffic control and track shipments of hazardous
      materials were reported as having a moderate risk impact which is inconsistent with OMB's suggestions and the upcoming
      departmental policy on security categorization. Due to this concern, we decided not to report how many high, moderate, and
      low risk-impact systems the Department has in question 1.




Exhibit A. OIG INPUT TO FISMA REPORT
                                                            Question 6

                              Is there an agency wide security
                6.a.                                                                               Yes
                              configuration policy?
      Comments:

                              Configuration guides are available for the products listed below. Identify which software is
                              addressed in the agency wide security configuration policy. Indicate whether or not any agency
                6.b.
                              systems run the software. In addition, approximate the extent of implementation of the security
                              configuration policy on the systems running the software.

                                                                        Approximate the extent of implementation of the
                                                                        security configuration policy on the systems running
                                                                        the software.

                                                                        Response choices include:
                                                                        - Rarely, or, on approximately 0-50% of the systems
                                                                          running this software
                                 Addressed in        Do any agency      - Sometimes, or on approximately 51-70% of the
                                 agency-wide          systems run         systems running this software
                                   policy?           this software?     - Frequently, or on approximately 71-80% of the
                                                                          systems running this software
                                                                        - Mostly, or on approximately 81-95% of the systems
                                                                          running this software
                                                                        - Almost Always, or on approximately 96-100% of the
               Product          Yes, No, or N/A        Yes or No.         systems running this software

      Windows XP                                                        - Rarely, or, on approximately 0-50% of the systems
                                      Yes                  Yes
      Professional                                                        running this software
      Windows NT                      Yes                  No
      Windows 2000                                                      - Frequently, or on approximately 71-80% of the systems
                                      Yes                  Yes
      Professional                                                        running this software
      Windows 2000                                                      - Frequently, or on approximately 71-80% of the systems
                                      Yes                  Yes
      Server                                                              running this software
      Windows 2003                                                      - Rarely, or, on approximately 0-50% of the systems
                                      Yes                  Yes
      Server                                                              running this software
                                                                        - Mostly, or on approximately 81-95% of the systems
      Solaris                         Yes                  Yes
                                                                          running this software
                                                                        - Rarely, or, on approximately 0-50% of the systems
      HP-UX                           Yes                  Yes
                                                                          running this software
                                                                        - Frequently, or on approximately 71-80% of the systems
      Linux                           Yes                  Yes
                                                                          running this software
                                                                        - Mostly, or on approximately 81-95% of the systems
      Cisco Router IOS                Yes                  Yes
                                                                          running this software
                                                                        - Mostly, or on approximately 81-95% of the systems
      Oracle                          Yes                  Yes
                                                                          running this software
      Other: Wireless/PDA                                               - Rarely, or, on approximately 0-50% of the systems
                                      Yes                  Yes
      and SQL                                                             running this software

      Comments: During FY 2006, DOT published additional baseline configuration standards for software products. In addition,
      DOT's Office of Chief Information Officer (OCIO) identified 117 DOT systems to be tested for compliance with its baseline
      configuration standards, and required OAs to complete the compliance checks and report the testing results by early September
      2006. Nine OAs that were responsible for 36 of 117 systems submitted their test results. Our review was based on this
      submission. However, we found deficiencies in this submission that are detailed in our audit report.




Exhibit A. OIG INPUT TO FISMA REPORT
                                                              Question 7

      Indicate whether or not the following policies and procedures are in place at your agency. If appropriate or necessary, include
      comments in the area provided below.

                     The agency follows documented policies and
          7.a.       procedures for identifying and reporting                                         Yes
                     incidents internally.

                     The agency follows documented policies and
          7.b.       procedures for external reporting to law                                         Yes
                     enforcement authorities.

                     The agency follows defined procedures for
                     reporting to the United States Computer
          7.c.                                                                                        Yes
                     Emergency Readiness Team (US-CERT).
                     http://www.us-cert.gov

      Comments: In FY 2006, DOT TCIRC has reported over 500 security incidents to US-CERT and was praised as a diligent and
      responsive federal agency in reporting incidents.


                                                              Question 8

                     Has the agency ensured security training and
                     awareness of all employees, including
                     contractors and those employees with significant
                     IT security responsibilities?

                     Response Choices include:
                     - Rarely, or, approximately 0-50% of employees
                       have sufficient training                           - Mostly, or approximately 81-95% of employees have
           8
                     - Sometimes, or approximately 51-70% of                sufficient training
                       employees have sufficient training
                     - Frequently, or approximately 71-80% of
                       employees have sufficient training
                     - Mostly, or approximately 81-95% of
                       employees have sufficient training
                     - Almost Always, or approximately 96-100% of
                       employees have sufficient training


                                                              Question 9

                     Does the agency explain policies regarding peer-
                     to-peer file sharing in IT security awareness
           9                                                                                          Yes
                     training, ethics training, or any other agency
                     wide training?




Exhibit A. OIG INPUT TO FISMA REPORT
                                                                                 24



EXHIBIT B. SCOPE AND METHODOLOGY
During FY 2006, we fulfilled the requirements of FISMA by reviewing the
progress made in securing FAA’s air traffic control systems, the unique challenge
in recertifying 50 percent of the DOT systems’ security, the security of the
consolidated IT infrastructure, the validation that OAs systems are configured
according to security standards, and the implementation of IT capital planning and
investment control procedures. In addition, we sampled 14 systems that had
undergone system security reviews to determine whether the OAs had complied
with Government and DOT standards in assessing system risks, identifying
security requirements, testing security controls, and accrediting systems to support
business operations.

We assessed DOT’s progress in correcting weaknesses identified in last year’s
FISMA review and contributed to DOT’s FISMA report by rating DOT progress
in areas specified by OMB.

We used the audit methodologies recommended by the Government
Accountability Office and guidelines issued by other Government authorities such
as NIST. We also used commercial scanning software to assess network
vulnerabilities.

We performed our information security review work throughout FY 2006,
focusing on FISMA evaluation between July and September 2006 at DOT and OA
Headquarters offices in the Washington, DC, metropolitan area. This performance
audit was conducted in accordance with Generally Accepted Government
Auditing Standards prescribed by the Comptroller General of the United States
and included such tests as we considered necessary to detect fraud, waste, and
abuse.

Previous audit reports on DOT’s information security program issued in response
to the FISMA legislative mandate (formerly the Government Information Security
Reform Act [GISRA]) include:

DOT Information Security Program, FI-2006-002, October 7, 2005;
DOT Information Security Program, FI-2005-001, October 1, 2004;
DOT Information Security Program, FI-2003-086, September 25, 2003;
DOT Information Security Program, FI-2002-115, September 27, 2002; and
DOT Information Security Program, FI-2001-090, September 7, 2001.




Exhibit B. Scope and Methodology
                                                                          25



EXHIBIT C. DOT OPERATING ADMINISTRATIONS AND SYSTEM
INVENTORY COUNTS
Operating Administration                      Acronym   FY 2005   FY 2006

Federal Aviation Administration                FAA        271       263

Federal Highway Administration                 FHWA        24        23

Federal Motor Carrier Safety Administration   FMCSA        19        22

Federal Railroad Administration                FRA         21        22

Federal Transit Administration                 FTA          9         6

Maritime Administration                       MARAD        13        12

National Highway Traffic Safety               NHTSA        18        18
Administration

Office of the Secretary                        OST         52        43

Pipeline and Hazardous Materials Safety       PHMSA         4         5
Administration

Research and Innovative Technology             RITA        17         9
Administration

Saint Lawrence Seaway Development             SLSDC         1         1
Corporation

Surface Transportation Board                   STB          2         2

   Total Systems                                          451       426




Exhibit C. DOT Operating Administrations and System Inventory
Counts
                                                                  26



EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                   Title

Ed Densmore                            Program Director
Nathan Custer                          Project Manager
Dr. Ping Z. Sun                        Project Manager
Michael Marshlick                      Computer Science Adviser
Michael P. Fruitman                    Communications Adviser
Victoria La Rock                       Senior Auditor
Jim Mallow                             Senior Auditor
Lynn Dowds                             Senior Auditor
Tim Roberts                            Senior Auditor
Mitchell Balakit                       Information Technology
                                       Specialist
Aaron Nguyen                           Computer Scientist
Narja Hylton                           Auditor
Christopher Cullerot                   Information Technology
                                       Specialist
Vasily Gerasimov                       Information Technology
                                       Specialist
Martha Morrobel                        Information Technology
                                       Specialist
Ann Moles                              Information Technology
                                       Specialist




Exhibit D. Major Contributors to This Report
